NO. 20-6743

IN THE
SUPREME COURT OF THE UNITED STATES

NEIL DUSSARD, PETITIONER
vs.
UNITED STATES OF AMERICA, RESPONDENT
PROOF OF SERVICE
I, Devin McLaughlin, do swear and declare that on this date, April 16, 2021, as required
by the Supreme Court Rule 29, I have served the enclosed REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI on each party to the above proceeding or that
party's counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid.
Respondent: The United States of America
Kimberly J. Ravener, Esq.
U.S. Attorney's Office — SDNY
One St. Andrew's Plaza
New York, NY 10007
kimberly.ravener a,usdoj.gov

Elizabeth B. Prelogar
Acting Solicitor General Counsel of Record
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washin ton, DC 20530-0001

Neil Dussard
Registry #78094-054
FCI Allenwood Medium
PO Box 2000
White Deer, PA 17887

I declare under penalty of perjury that the foregoing is true and correct.

Executed on: April 16, 2020.
Devin McLaughlin, Esq.
CJA Counsel for Petitioner
Langrock Sperry &Wool, LLP
PO Drawer 351
Middlebury, VT 05753-0351
E-mail: dmclaughlin ,lancrock.com
Ph: (802) 388-6356 ~ Fx: (802) 388-6149
1212488.

2

